HHS/OIG, Audit -"Fallon Community Health Plan's Adjusted Community Rate Proposal
Modifications for Contract Year 2004,"(A-01-05-00512)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Fallon Community Health Plan's Adjusted Community
Rate Proposal Modifications for Contract Year 2004," (A-01-05-00512)
January 11, 2006
Complete
Text of Report is available in PDF format (239 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether the Fallon Community Health Plans use of its Medicare
Prescription Drug, Improvement, and Modernization Act (MMA) payment increases was adequately
supported and allowable under MMA.  In general, Fallons use of the $10.9 million MMA
payment increase was adequately supported and in accord with MMA requirements.  The
exception was that Fallons estimate of $160,730 for subsidizing its members drug discount
card purchases exceeded actual purchases.  As a result, Fallon received $154,970 more
than it subsidized.  Fallon did not use these excess funds for other allowable purposes
under MMA.  Instead, the funds were deposited into the corporate accounts.  We
recommended that Fallon return the $154,970 or request permission from CMS to use the funds
in a manner consistent with MMA.  Fallon concurred with the finding and indicated it
would contact CMS.